<html>
<title> - EXAMINING THE ROLE OF ENVIRONMENTAL POLICIES ON ACCESS TO ENERGY AND ECONOMIC OPPORTUNITY</title>
<body><pre>[Senate Hearing 114-359]
[From the U.S. Government Publishing Office]










                                                        S. Hrg. 114-359

                  EXAMINING THE ROLE OF ENVIRONMENTAL
         POLICIES ON ACCESS TO ENERGY AND ECONOMIC OPPORTUNITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 13, 2016

                               __________

  Printed for the use of the Committee on Environment and Public Works




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-944 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             SECOND SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 13, 2016
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     3

                               WITNESSES

Nelson, Rev. Dr. J. Herbert II, Director, Presbyterian Church 
  U.S.A. Office of Public Witness................................     5
    Prepared statement...........................................     8
Breen, Michael, President, Truman National Security Project......    17
    Prepared statement...........................................    19
Sirico, Father Robert A., President, Acton Institute.............    23
    Prepared statement...........................................    25
Scales, Robert, Major General (Ret.), Senior Military Analyst....    37
    Prepared statement...........................................    39
    Responses to additional questions from Senator Vitter........    47
Epstein, Alex, President, Center for Industrial Progress.........    48
    Prepared statement...........................................    50
    Responses to additional questions from Senator Vitter........    53

 
 EXAMINING THE ROLE OF ENVIRONMENTAL POLICIES ON ACCESS TO ENERGY AND 
                          ECONOMIC OPPORTUNITY

                              ----------                              


                       WEDNESDAY, APRIL 13, 2016

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in room 
406, Dirksen Senate Office Building, Hon. James M. Inhofe 
(chairman of the committee) presiding.
    Present: Senators Inhofe, Boxer, Barrasso, Capito, Crapo, 
Fischer, Rounds, Sullivan, Whitehouse, Gillibrand, Booker, and 
Markey.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Our hearing will come to order.
    Today we have a very distinguished panel. They are all five 
distinguished, but the two on the right I just don't know as 
well as I know the other three.
    Senator Boxer. Yes, because they are our witnesses.
    Senator Inhofe. I know it. I know that, Barbara. And we are 
very happy that they are here.
    First of all, the three that I have known before for a long 
period of time, Father Sirico and General Scales. General 
Scales, the reason for his military success is that he got his 
training at Fort Sill in Oklahoma. And Alex Epstein, whose book 
I have not finished, but I have it.
    During the State of the Union address, the President said, 
``No challenge poses a greater threat to future generations 
than climate change.'' Well, he is wrong. The far greater 
threat is what the Obama administration is implementing in the 
name of climate change. This Administration has spent 
significant time and taxpayer dollars promoting a sense of fear 
and urgency around climate change, exploiting any recent 
catastrophic event to justify Obama's economically devastating 
policies.
    For example, his statement tying terrorism to climate 
change, those statements are not only dangerous, but demean the 
men and women who have pledged their lives to keep this country 
safe. His climate change policies aren't protecting this 
country; they are killing the coal industry, undermining our 
global competitiveness, putting thousands of Americans out of 
work while shipping their jobs overseas, and costing 
hardworking taxpayers hundreds of billions of dollars that will 
take generations to pay down.
    Rhetoric aside, President Obama's climate policies have 
nothing to do with the environment. The EPA did not even bother 
to assess whether the so-called Clean Power Plan, that is what 
he has been talking about over in Paris, and that is the 
centerpiece of the President's entire climate agenda, and the 
EPA didn't even bother to talk about that and what the source 
would be and how he would accomplish it. In fact, it costs 
hundreds of billions of dollars each year and has minuscule 
benefits that would be completely undone by a few months of 
economic activity in China.
    The President's claims that his efforts are about 
protecting the health of this country or national security are 
equally disingenuous. In fact, they stand to undermine our 
economic well-being, which is the foundation of this country's 
domestic success and global respect. A Children's Health Watch 
study from May 2013 found that high energy costs can cause 
families to go without needed medical care and increase the 
risk of eviction and homelessness.
    Recently there has been a fad to demonize fossil fuels. But 
fossil fuel development has been a game changer for economic 
opportunity around the world and also is integral from a 
strategic military perspective. Fossil fuels help lift 
communities out of abject poverty. The aggressive regulating by 
the Obama administration to promote his climate change agenda, 
such as the Climate Action Plan and the Paris Agreement, will 
do more to harm than good to vulnerable communities. 
Incidentally, we had a hearing on this yesterday and were able 
to get into this issue.
    Of course, climate is always changing, we understand that. 
But whether you believe that it is man that is causing it or 
not, it is in our best interest, from any perspective, to 
continue to use fossil fuels because they are important to our 
economy, our military, and our quality of life.
    But the existence of abundant fossil fuel resources in this 
country alongside American ingenuity and innovation have fueled 
our path to becoming the global powerhouse we are today. The 
American people understand the value of fossil fuels, which is 
why they have consistently rejected costly climate policies, 
and the Congress has acted accordingly.
    Clearly, the true purpose of the President's climate 
policies have nothing to do with protecting the interests of 
the American people. Instead, they are meant to line the 
pocketbooks of his political patrons while promoting his self-
proclaimed climate legacy.
    So we appreciate all of you being here, and I want you to 
know we are going to have a much better attendance today. I 
think some of our colleagues want to wait until our opening 
statements are over before they show up. They have other things 
to do.
    Senator Boxer.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Today we have a very distinguished panel to discuss the 
real impacts the President's climate policies are already 
having on the American people. In particular, I'd like to 
welcome Father Sirico, General Scales, and Alex Epstein for 
joining us.
    During the State of the Union, the President said, ``No 
challenge poses a greater threat to future generations than 
climate change.'' He's wrong. The far greater threat is what 
the Obama administration is implementing in the name of climate 
change. This administration has spent significant time and 
taxpayer dollars promoting a sense of fear and urgency around 
climate change, exploiting any recent catastrophic event to 
justify Obama's economically devastating policies. For example, 
his statements tying terrorism to climate change are not only 
dangerous but demean the men and women who have pledged their 
lives to keep this country safe. His climate change policies 
aren't protecting this country--they're killing the coal 
industry, undermining our global competitiveness, putting 
thousands of Americans out of work while shipping their jobs 
overseas, and costing hardworking taxpayers hundreds of 
billions of dollars that will take generations to pay down.
    Rhetoric aside, President Obama's climate policies have 
nothing to do with the environment. The EPA did not even bother 
to assess whether the so-called Clean Power Plan--the 
centerpiece of the President's entire climate agenda--would 
have any impact on the environment. In fact, it will cost 
hundreds of billions of dollars each year and have minuscule 
benefits that will be completely undone by a few months of 
economic activity in China.
    The President's claims that his efforts are about 
protecting the health of this country or national security are 
equally disingenuous. In fact, they stand to undermine our 
economic well-being, which is the foundation of this country's 
domestic success and global respect. A Children's HealthWatch 
study from May 2013 found that high energy costs can cause 
families to go without needed medical care and increase the 
risk of eviction and homelessness.
    Recently there has been a fad to demonize fossil fuels. But 
fossil fuel development has been a game changer for economic 
opportunity around the world and also is integral from a 
strategic military perspective. Fossil fuels help lift 
communities out of abject poverty. The aggressive regulating by 
the Obama administration to promote his climate change agenda, 
such as the Climate Action Plan and the Paris Agreement, will 
do more harm than good to vulnerable communities. Even the Pope 
has tried to turn climate action into an international moral 
imperative.
    But whether you believe in climate change or not, it is in 
our best interest--from any perspective--to continue to use 
fossil fuels because they are important to our economy, our 
military, and our quality of life.
    But the existence of abundant fossil fuel resources in this 
country alongside American ingenuity and innovation have fueled 
our path to becoming the global powerhouse we are today. The 
American people understand the value of fossil fuels, which is 
why they have consistently rejected costly climate policies, 
and Congress has acted accordingly.
    Clearly, the true purpose of the President's climate 
policies have nothing to do with protecting the interests of 
the America people. Instead, they are meant to line the 
pocketbooks of his political patrons while promoting his self-
proclaimed climate legacy.
    I thank our witnesses for being here today and look forward 
to their testimony.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Thanks.
    Well, I have to remind myself this is the environment 
committee, because listening to you, Mr. Chairman, it sounds 
like the pollution committee to me. Now, I would say if 9 out 
of 10 doctors tell you you need a heart operation, you wouldn't 
listen to the one outlier; you would get the operation. You 
wouldn't yell at the doctors and say they were liars and stupid 
and on somebody else's payroll; you would get the operation.
    Well, 97 percent of respected scientists, respected 
scientists tell us there are dangers to climate change and that 
our activities are causing it, most of it. So let's stop all 
this posturing and attacking President Obama, who has a 50 
percent approval rate. His approval rating is higher than 
Ronald Reagan's was at his time in the presidency, when the 
Republican Congress has 18 percent, and in addition to that, 
big majority support action on climate change.
    People are smart. They don't care how you mock people. They 
know 2015 was the hottest year on record, and 15 of the 16 
warmest years on record have occurred in the 21st century. Just 
this year scientists reported sea levels are rising many times 
faster than they have in 2,800 years. The 2015 wildfire season 
was the costliest; just ask my State, with a record $1.71 
billion spent. So we see that climate poses a risk to our 
national security.
    How about the Department of Defense? We have a military 
expert here. He may disagree. But the Department of Defense's 
2014 Quadrennial Defense Review linked climate change with 
national security: ``Climate change poses a significant 
challenge for the United States and the world at large. The 
pressures caused by it will influence resource competition, 
place additional burdens on economic society and governance 
institutions. These effects are threat multipliers that will 
aggravate stressors abroad, such as poverty, environmental 
degradation, political instability, and social tensions, 
conditions that can enable terrorist activity and other forms 
of violence.''
    So don't say it is the President out of context who is 
talking about violence and terrorism. It is the Department of 
Defense.
    Now, thank goodness we have an Administration that isn't 
cowed by the kinds of rhetoric that we heard from my Chairman, 
who I really like. But the fact is his words just don't make 
sense to me. The efforts undertaken as part of the President's 
Climate Action Plan include: new fuel economy standards for 
cars and heavy duty trucks; finalizing the Clean Power Plan, 
which will cut carbon pollution 32 percent.
    And I would ask to put my whole statement into the record, 
and I will finish my last couple of minutes this way.
    The American public understands the need to act. According 
to a New York Times poll, two-thirds of Americans support the 
United States being part of an international treaty to limit 
the impacts of climate change. So the Republicans on this 
committee are so out of step with the American people. It is 
unreal. A recent poll found 60 percent of American voters 
support the Clean Power Plan, and 70 percent of voters want 
their State to cooperate and develop a plan to implement these 
new standards.
    While we face rhetoric like we heard on the floor, trying 
to go after the President's plans, the people are with the 
President, and the President's approval rates show that people 
think he is going in the right direction.
    And there are benefits. I want to read you the benefits. 
Here is the point. Sometimes when there is a problem the 
solution brings other problems. In this case, the solution, 
reducing carbon pollution, has co-benefits, and they have been 
quantified. By 2030, just the Clean Power Plan alone will 
prevent 1,500 to 3,600 premature deaths because we are cleaning 
up the air, up to 1,700 heart attacks, 90,000 asthma attacks in 
children, and how about this, 300,000 missed work days and 
school days by 2030.
    Look, I often say this, if you can't breathe, you can't 
work. And when we take the carbon out of the air, we are taking 
all these other pollutants out of the air, and no one--and I 
don't think anyone has had this situation where a constituent 
comes up and says, Barbara, the air is too clean, please make 
it dirtier. No. They want me to continue to clean up the air 
because it has so many benefits.
    So I haven't even gone into the number of clean energy jobs 
that await us, all kinds of good things. And yes, in the 
dislocations we have to be prepared to help those who are 
dislocated. But if we took this attitude, we never would have 
moved to the automobile because all those people who drew the 
horse-drawn carriages would be unemployed. We can make sure 
that people are brought along.
    So I am excited about what the President is doing, and I am 
not excited about my colleague's opening statement, but he did 
it probably even better than he has ever done it before. Thank 
you very much.
    [The prepared statement of Senator Boxer was not received 
at time of print.]
    Senator Inhofe. Oh, thank you. That is very nice.
    I want all of you to know that Barbara Boxer and I get 
along great on roads and highways and infrastructure and a lot 
of things.
    All right, I am going to start over here with you, Reverend 
Nelson, and what I would like to ask you to do, we will have 
more members coming here. We do have staff present representing 
members, and I would like to ask you if you could hold to your 
5-minute opening statement, it would be appreciated.

     STATEMENT OF REV. DR. J. HERBERT NELSON II, DIRECTOR, 
      PRESBYTERIAN CHURCH U.S.A. OFFICE OF PUBLIC WITNESS

    Rev. Nelson. Hello, my name is Reverend Doctor J. Herbert 
Nelson II. I direct the Presbyterian Church U.S.A. Office of 
Public Witness here in Washington, DC. Chairman Inhofe and 
Member Boxer and committee members, thank you for the 
opportunity to testify today.
    I come to you today not only with 30 years of pastoral 
experience in a community that bore the harmful impacts of 
industrial pollution, not only as the director of the 
denomination's national advocacy office, but as a 
representative of an ecumenical Christian community that 
understands the urgent moral imperative to act on climate 
change and protect God's creation.
    Psalm 24:1 and 2: ``The earth is the Lord's and the 
fullness thereof, the world and those who live in it; for he 
has founded it on the seas, and established it on the rivers.'' 
We must discuss environmental policy in tandem with economic 
policy, the care of creation and all of creation, including our 
neighbors' health and economic well-being. It is central to our 
concern in addressing climate change.
    I served as a pastor in a poor inner city congregation in 
Memphis, Tennessee, before coming to Washington, DC. I shared 
my home and my community with some of the most intense 
industrial pollution in this country from a chemical plant to a 
coal-fired power generating station and an oil refinery. Ours 
was a predominantly African-American community, which like so 
many low-income communities of color in our Nation, suffered 
disproportionately under the health burdens that oftentimes 
deal with the issues of industrial zones in our Nation. It was 
widely reported at the time that African-Americans were 79 
percent more likely than whites to live in neighborhoods where 
industrial pollution was suspected of posing the greatest 
health danger.
    Memphis residents were often sick and were forced to miss 
school and work because of chronic asthma caused by pollutants. 
I recall one activist I knew, Doris Bradshaw, who lived on land 
contaminated by near military storage facility. After her 
grandmother's untimely death from an aggressive cervical 
cancer, which doctors told her was environmentally induced, Ms. 
Bradshaw delved into her own investigation of the contaminants 
of the land and air. She was shocked to find a laundry list of 
chemicals that had been improperly disposed and stored there, 
and those responsible for the disposal had not been 
accountable.
    I am certain that the CEOs and profiteers of those 
companies did not live in the areas where the air and water 
made their family ill. As pastor I conducted funerals of people 
who died before their time, made countless hospital visits for 
maladies my flock should not have had to endure, and engaged in 
organizing to bring justice to those afflicted by careless 
environmental practices. We seek an earth restored, where 
economic development is not paid for with the health of our 
most vulnerable sisters and brothers.
    Presbyterians have established since 1981 that we have an 
ethical obligation to secure a livable planet for present and 
future generations. A report approved by the 218th General 
Assembly of the Presbyterian Church U.S.A. entitled The Power 
to Change: U.S. Energy Policy and Global Warming states 
emphatically that we have both a spiritual and moral obligation 
and responsibility to address this issue of climate change.
    In order to do this in the Reformed tradition, we believe 
that repentance is required. Repentance in our biblical 
understanding calls for individuals to stop the actions that 
are contrary to God's desires for sustainable human life and 
sustaining human life while turning to a new way of living that 
promotes what John 10:10 requires--a vision of an abundant 
life. With God's grace, we can receive the power to change.
    The Presbyterian Church U.S.A. recognizes that there is no 
greater measure than God's provision for energy, the earth, the 
sun, and the wind. And therefore we speak very candidly about 
the issues of subsidizing the financial incentives away from 
fossil fuels extraction and toward renewable energy 
infrastructure in order to protect the affordable energy prices 
that many low-income families rely on that are inexpensive and 
that the way we should be stunned by the cost of human health 
reclamation of God's damaged creation were reflected in the 
utility bills of everyday Americans. We know not what we do.
    I sit here today not just representing Presbyterian Church 
U.S.A., but I do represent faith leaders from across the Nation 
and also communities of faith from across the community, one of 
the 21 who have signed an agreement dealing with the issues of 
carbon emission. Given that my time is running out, I will 
submit my report to you and respectfully submit the letter that 
you already have, actually, and also other information 
regarding those who are supporting.
    I know that there has been a great deal of concern 
regarding whether or not faith communities are standing with 
this particular issue. I am here to say that the petition that 
has been signed, the letters that have been given to you, we 
are seriously involved in this because it is not only a mandate 
of our holy books, but it is the way that we are called as 
responsible stewards of this earth to be caretakers for what 
God has given to us and to be assured that, quite frankly, we 
have a planet to leave to those who are coming behind.
    [The prepared statement of Rev. Nelson follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Inhofe. Thank you, Reverend Nelson.
    Rev. Nelson. Thank you so much.
    Senator Inhofe. Mr. Breen.

            STATEMENT OF MICHAEL BREEN, PRESIDENT, 
                TRUMAN NATIONAL SECURITY PROJECT

    Mr. Breen. Thank you, Chairman Inhofe, Ranking Member 
Boxer, and distinguished members of the committee. I thank you 
for the opportunity to testify today.
    I come before you, first and foremost, as a fellow citizen 
with a shared concern for the security and the prosperity of 
our great Nation. Like many in the post-9/11 generation, I am 
no stranger to the costs and consequences of war. While I am 
currently the President and CEO of the Truman Project and 
Truman Center, I previously had the privilege to lead American 
soldiers in combat in both Operation Enduring Freedom and 
Operation Iraqi Freedom and to train at Fort Sill, Oklahoma.
    National security leadership, on the battlefield or in 
Washington, means taking seriously the risks to those you are 
charged with protecting. As a combat leader in Afghanistan and 
Iraq, I often received intelligence that indicated lethal 
danger to my unit and my mission. Regardless of whether or not 
I personally believed in the conclusions drawn from that 
intelligence or the sources from which it came, I would have 
committed a serious error if I did not act decisively to 
minimize the risk.
    America's military leaders have already come to understand 
that climate change is a risk to our national security. The 
2010 Quadrennial Defense Review, a document of military 
strategy, not partisan political design, identified climate 
change as an ``accelerant of instability'' that would place a 
``burden to respond'' on the Department of Defense. The next 
review, in 2014, designated climate change a threat multiplier 
because its impacts ``increase the frequency, scale, and 
complexity of future missions.''
    Moreover, the Center for Naval Analysis Military Advisory 
Board, which includes 16 retired, high ranking military leaders 
including former Army Chief of Staff General Gordon Sullivan 
and former Marine Corps Commandant General James T. Conway, 
recently argued in a report co-signed by former Secretary of 
Homeland Security Michael Chertoff and former Secretary of 
Defense Leon Panetta that ``the nature and pace of observed 
climate changes pose severe risks for our national security.''
    Those severe risks include drought, famine, flooding, sea 
level rise, extreme weather events, mass migration, and 
increasingly intense resource competition. Each of these 
phenomena is currently fueling violence and instability around 
the world, and will for years to come.
    According to the Department of the Navy, the United States 
receives a request for humanitarian assistance from somewhere 
in the world ``on an average of once every 2 weeks.'' Given 
that our fiercest enemies prey on human misery, the United 
States cannot afford--strategically nor morally--to leave these 
calls for help unanswered. Unfortunately, climate change makes 
such requests all the more taxing on our military. Disasters 
are increasing in size, scope, and frequency, often ravaging 
the most fragile of communities and pushing feeble governments 
into chaos to the benefit of terrorists.
    I am reminded of a senior Bangladeshi military officer I 
met years ago who recognized climate change as a threat to not 
only his nation's security, but its very integrity. A full one-
fifth of Bangladesh's landmass would be under water with little 
more than a 3-foot rise in sea level, threatening to displace 
more than 22 million people into nearby India.
    Our democratic ally has, in turn, planned for this 
eventuality by building an 8-foot fence along 70 percent of its 
2,500-mile border. This creates the very real possibility of 
millions of Bangladeshis frantically fleeing a catastrophe only 
to be repelled from India by force. These nations fought a war 
over the same territory just decades ago.
    NATO, along with senior leaders in our own military, have 
expressed concerns about prospects for conflict in the Arctic, 
where melting ice is giving way to new strategically valuable 
waterways. Russia has accordingly increased its military 
exercises and a number of military bases in use in the Arctic 
considerably since 2007. These newly open sea lanes will surely 
be a source of tension between the United States and an 
increasingly nationalist Russia.
    I will close with a reminder that we are experiencing 
climate change on the home front as well. More than 11,000 and 
50,000 men and women of the National Guard deployed to our own 
cities during Hurricanes Sandy and Katrina, respectively, 
leading relief efforts that cost our Nation a combined $151 
billion in repairs and rebuilding.
    Extreme heat and wildfires have halted live fire training 
exercises in Alaska and have required mobilization for 
emergency assistance throughout the country, such as in Idaho 
and Oklahoma. And sea levels rising at twice the global rate 
threaten, of all things, our own Naval Headquarters at Norfolk, 
Virginia. I repeat, rising sea levels threaten our largest 
naval base.
    Climate change is a risk factor that makes many of the 
other threats we face both more likely and more dangerous from 
terrorist organizations that prey on fragile and failing states 
to rising resurgent major powers who are hostile to our values. 
Demanding that we act to address either the threat of climate 
change or the threat posed by a given enemy, but not both, is a 
deeply misguided false choice. The United States fought and won 
a two-front, two-ocean war on behalf of the world. Surely we 
can confront threats in both the short- and long-term now.
    I urge the Congress to do what it has always done when our 
Nation has been tested throughout history: heed the threat, 
listen to the risk assessment our military leaders make, and 
grant them the tools they need to minimize risk to our service 
members, our citizens, our Nation, and our allies around the 
world.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Breen follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  
    
    Senator Inhofe. Thank you, Mr. Breen.
    Father Sirico, you are recognized.

    STATEMENT OF FATHER ROBERT A. SIRICO, PRESIDENT, ACTON 
                           INSTITUTE

    Fr. Sirico. Thank you very much, Senator Inhofe, Senator 
Boxer, for the invitation to be with you today. I am the 
President of the Acton Institute for the Study of Religion and 
Liberty. We study the interpenetration of ethics, theology, and 
market economics. I am also the pastor of a parish in Grand 
Rapids, Michigan.
    The recent promulgation of the encyclical by His Holiness, 
Pope Francis, Laudato Si', dealing with the care of our common 
home, has occasioned a great deal of discussion, so I would 
like to address myself to that and then some applications of 
how that might be seen in the real world and for your 
consideration in the development of policy.
    It is important at the outset that I first affirm the goals 
that the Holy Father sets out in his encyclical, namely, ``to 
protect our common home'' and ``to bring the whole human family 
together to seek a sustainable and integral development.'' The 
Pope is right to give attention to these matters, obviously. He 
is also right when he says that there is a need for an honest 
and forthright debate on these matters.
    I would like to outline for you what the social teaching of 
the Catholic Church is, because as I have heard the discussion, 
there is a great deal of confusion over this. The Church's 
teaching authority claims that its Magisterium might be called 
a privileged insight into matters of faith and morals. The 
Church intentionally limits her specific competency to these 
areas, faith and morals.
    This magisterial authority has always admitted to its 
limitations and to boundaries which may be obscure or at times 
touch up against certain matters outside of the Magisterium's 
immediate mission. This, of course, makes the task of properly 
interpreting these documents much more challenging and much 
more exciting.
    The Church simply does not speak, nor does she claim to 
speak, with the same authority on matters of economics and 
science qua economics and science. In fact, the encyclical 
says, ``on many concrete questions, the Church has no reason to 
offer a definitive opinion; she knows that honest debate must 
be encouraged among experts, while respecting divergent 
views.''
    A particularly fruitful part of the dialogue which Laudato 
Si' calls for, it seems to me, lies somewhere between its major 
title, Laudato Si', Praised be God, and its subtitle, On Care 
for Our Common Home. Here is what we know. We know that the 
riches of the earth which God created and have given to us are 
not simply placed at our disposal automatically. The reality of 
scarcity, which gives rise to the discipline of economics 
itself also tells us this. In paragraph 110 of Laudato Si', the 
Holy Father makes an important observation on what he calls the 
``fragmentation of knowledge.'' Put another way, no one can 
know everything.
    One way that environmental degradation and even poverty 
might be described would be to say that it is evidence of a 
failure to know and to coordinate the things of value. After 
all, people don't generally degrade or discard what they see as 
having value. But they first need to know it. This, of course, 
is precisely why centralizing knowledge and planning is 
inadequate, and indeed dangerous to yield a broad range of 
knowledge required to prevent the degradation of the economy, 
or for that matter, the environment.
    Fortunately, the discipline of economics itself can enable 
us to confront what is called the ``knowledge problem.'' The 
only way that knowledge can be obtained is through free signals 
called prices sent from across the economy by producers, 
consumers, buyers, and sellers.
    Though reference to environmental issues has become common 
in many religious communities, environmentalism has come to 
mean more than getting rid of air pollution or cleaning up 
toxic waste dumps. Unfortunately, for many people of faith it 
has become their religion itself. It is one thing to recognize 
caring for nature as part of God's command, to honor what God 
has made; it is quite another to transfer that sentiment of 
worship to the creation itself.
    I have submitted a much fuller examination of these 
questions, and I look forward, as well, to your comments. Thank 
you very much.

    [The prepared statement of Fr. Sirico follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Inhofe. Thank you, Father Sirico. Thank you very 
much.
    General Scales, it is nice to have you back.

   STATEMENT OF ROBERT SCALES, MAJOR GENERAL (RET.), SENIOR 
                        MILITARY ANALYST

    Mr. Scales. Thank you, Mr. Chairman, and thank you very 
much for inviting me again to address this committee.
    During his graduation address to the Coast Guard Academy in 
2015, President Obama shocked the defense community by 
declaring his new national defense priority: ``So I'm here 
today to say that climate change constitutes a serious threat 
to global security, an immediate risk to our national 
security.''
    The Administration's newfound passion to connect climate 
change to war is an example of faulty theories that rely for 
relevance on politically correct imaginings rather than 
established historical precedent. The theories linking climate 
change to war come from a larger body of political thought that 
ascribes human conflict to what we call the ``Global Trends'' 
school. Advocates of the Global Trends theory argue that 
environmental scourges such as diminishing water supplies, 
urbanization, and the AIDS/HIV epidemic shape the course of 
human conflict.
    But climate change is not a global trend because 3,000 
years of the historical record of human conflict argues 
conclusively against any causal relationship between war and 
temperature. Let me be more specific. Never in the written 
history of warfare, from Megiddo in 1,500 B.C. to the Syrian 
civil war today, is there any evidence that wars are caused by 
warmer air. At best, climate change might, over centuries, 
contribute minutely to the course of warfare. The key word is 
contribute. Climate change will never cause wars; thus, it can 
never be actually a threat to national security.
    It is interesting to note the hypocrisy within the 
scientific communities that argue for a connection between 
climate change and national security. Scientists generally 
agree on the long-term consequences of global warming. Radical 
environmentalists delight in excoriating the so-called ``junk 
science'' espoused by climate change deniers, but they are less 
than enthusiastic in questioning the junk social science that 
environmentalists and their Beltway fellow travelers use to 
connect climate change to war.
    Where does the Administration get their facts about climate 
change and war? Well, first they contend that a warming planet 
causes drought, which leads to mass migration away from areas 
of creeping desertification. To be sure, rising temperatures, 
combined with overgrazing in places like Central Africa, have 
caused displacement of peoples.
    But the misery of these peoples leads to, well, misery, not 
war. Tribes striving to exist in these often horrific 
environmental conditions have little energy left to declare war 
against a neighbor. The nations of Central Africa are in the 
grip of conflict started by Boko Haram in Nigeria and al 
Shabaab in Somalia. But these transnational terrorists are 
motivated to kill by the factors that have always caused 
nations, or entities masquerading as nations, to start wars, 
such as hatred induced by fear of alien cultures, religions, 
ideologies, economics, as well as social and ethnic 
differences.
    But the myth of climate change as an inducement to war 
continues to curry favor among Washington elites. One source 
for connecting war to temperature comes from the political 
closeness between environmentalists and the anti-war movement. 
Their logic goes like this: Global warming is bad. Wars are 
bad. Therefore, they must be connected. Remember, prior to the 
1991 Gulf War, environmentalists warned of a decade of global 
cooling that would come from burning Kuwaiti oil fields. More 
recently, environmental radicals argued against bombing ISIS 
oil trucks, fearing the environmental consequences.
    Sadly, those in the Administration who lobbied against 
striking a legitimate military target because of imagined 
environmental damage caused by these strikes may in all 
likelihood have sustained ISIS by refusing to interdict their 
richest sources of income. The point is that in today's wars 
politically correct theories, when inserted into a battle plan, 
might well extend wars needlessly and get soldiers killed.
    Our men and women in uniform are smart and perceptive. They 
can spot phoniness in a heartbeat. Think of a soldier in 
Afghanistan or Iraq, returning from a dangerous and exhausting 
mission, being obliged to listen to a senior defense official 
lecture them on the, well, revelation that fighting climate 
change is their most important mission. These men and women see 
the realities of battle all around them. The military threat of 
rising temperatures is not one of them.
    Our young military leaders are already jaded and 
discouraged by an Administration that seems to be out of touch 
with their real-world, day-to-day life or death needs. Do we 
really think that they will become more confident about the 
wisdom of their leaders if they are obliged to turn away from 
ISIS and fight a war against rising temperatures? Somehow, I 
don't think so.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Scales follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Inhofe. Thank you very much, General Scales.
    Mr. Epstein.

             STATEMENT OF ALEX EPSTEIN, PRESIDENT, 
                 CENTER FOR INDUSTRIAL PROGRESS

    Mr. Epstein. The energy industry is the industry that 
powers every other industry. To the extent energy is cheap, 
plentiful, and reliable, human beings thrive. To the extent 
energy is unaffordable, scarce, or unreliable, human beings 
suffer.
    And yet in this election year the candidates--especially 
the Republican candidates--have barely discussed energy. Thus, 
I am grateful for the opportunity to discuss the morality of 
energy policy.
    When we evaluate energy policies, such as President Obama's 
efforts to restrict cheap, plentiful, reliable fossil fuels and 
mandate solar and wind, it is worth asking: Has this been tried 
before? The answer is much milder versions of the President's 
energy policy have been tried in Europe, and they have resulted 
in skyrocketing energy prices every time.
    Take Germany. Over the last decade, Germany pursued the 
popular ideal of running on the unreliable energy from solar 
and wind. But since unreliable energy can't be relied upon, it 
has to be propped up by a reliable energy, mostly fossil fuels. 
The solar panels and wind turbines are an unnecessary and 
enormous cost to the system. The average German pays three to 
four times more for electricity than the average American. It 
is so bad that Germans have had to add a new term to the 
language: energy poverty.
    The United States should learn from the failed German 
experiment. Instead, our President is doubling down on it. And 
just as ominously, he is calling for even the poorest countries 
to use unreliables instead of reliables. This, in a world where 
3 billion people have almost no access to energy.
    How could this possibly be moral? The alleged justification 
is that fossil fuels cause climate change and should therefore 
be eliminated. But we need to clearly define what we mean by 
climate change, because while nearly everyone, the 97 percent, 
agrees that more CO<INF>2</INF> in the atmosphere causes some 
climate change, it makes all the difference in the world 
whether that change is a mild, manageable warming or a runaway, 
catastrophic warming.
    Which is it? If we look at what has been scientifically 
demonstrated versus what has been speculated, the climate 
impact of CO<INF>2</INF> is mild and manageable. The warming of 
the last 80 years has been barely more than the natural warming 
that occurred in the 80 years before that, when there were 
virtually no CO<INF>2</INF> emissions. From a geological 
perspective both CO<INF>2</INF> levels and temperatures are 
very low. There is no perfect amount of CO<INF>2</INF> or 
perfect average temperature, although higher CO<INF>2</INF> 
levels do create more plant growth and higher temperatures do 
lower mortality rates.
    To be sure, many prominent scientists and organizations 
predict catastrophe, but this is wild speculation, and it is 
nothing new. Indeed, many of today's thought leaders have been 
falsely predicting catastrophe for decades. Thirty years ago 
NASA climate leader James Hansen predicted that temperatures 
would rise by 2 to 4 degrees between 2000 and 2010. Instead, 
depending on which temperature dataset you consult, they rose 
only slightly or not at all.
    Thirty years ago, President Obama's top science advisor, 
John Holdren, predicted that by now we would be approaching a 
billion CO<INF>2</INF>-related deaths from famine. Instead, 
famine has plummeted. More broadly, climate-related deaths, 
deaths from extreme heat, extreme cold, storms, drought, and 
floods, have decreased at a rate of 50 percent since the 1980s 
and 98 percent since major CO<INF>2</INF> emissions began 80 
years ago.
    How is it possible that we are safer than ever from the 
climate? Because while fossil fuel use has only a mild warming 
impact, it has an enormous protecting impact. Nature doesn't 
give us a stable, safe climate that we make dangerous; it gives 
us an ever changing dangerous climate that we need to make 
safe. And the driver behind sturdy buildings, affordable 
heating and air conditioning, drought relief, and everything 
else that keeps us safe from climate is cheap, plentiful, and 
reliable energy, overwhelmingly from fossil fuels.
    Thus the President's anti-fossil fuel policies would harm 
billions of lives economically and make them more vulnerable to 
nature's ever present climate danger. Using more fossil fuels, 
along with other cheap, plentiful, reliable sources, such as 
nuclear and hydro, also opposed by most of the environmentalist 
movement, is a moral imperative.
    Now, I realize that many of you have fought to restrict 
fossil fuel use, and it can be politically difficult to change 
one's stand, but if you continue on your current path you will 
cause billions of people to suffer unnecessarily. I hope you 
reconsider your position, and no matter how politically 
difficult it is, I hope you change your stand.
    [The prepared statement of Mr. Epstein follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   Senator Inhofe. Thank you very much, Mr. Epstein.
    I am going to try something different here. Judging from 
our experience yesterday and some of the previous committee's 
hearings, our members seem to go over, so I am going to change 
our 5 minutes to 6 minutes and then really try to hold everyone 
to 6 minutes, if that is acceptable.
    General Scales, you have heard the quote that I gave in my 
opening statement in terms of the President talking about the 
greatest threat facing us is not ISIS but is global warming. 
One time he made that statement was April 18th, and it was on 
that same that ISIL executed two groups of Christians, 
beheading 21 and shooting the other 9.
    What do you believe is the greatest national threat, and 
how do we respond to these statements?
    Mr. Scales. Thank you, Senator. I believe the greatest 
threat, in a word, is Russia. They are the largest existential 
threat, the most aggressive nation-state that we face, and we 
are seeing a resurgence of aggression obviously in Ukraine and 
Syria and elsewhere led by Vladimir Putin.
    But what makes this so difficult to deal with, Senator, is 
that the military today has a whole panoply of additional 
threats. You mentioned ISIS. How about the Chinese threat to 
the South China Sea? We haven't begun to speak about the 
Iranian nuclear threat, which will be on us soon, and what that 
implies.
    So soldiers and sailors today are bombarded by a series of 
global threats and diminishing resources, and to my mind, at 
least, the additional distraction of focusing on climate change 
in the midst of all this is simply counterproductive.
    Senator Inhofe. Now, would you say that, to focus on 
climate change, does this impact our ability to execute 
operations with our allies around the globe against ISIL?
    Mr. Scales. It is too early to say. I think, inevitably, 
this has to be true because, remember, there is only so much 
energy and so much money, and so many men and women to confront 
our global challenges today. If you have lawyers that are 
telling you what to bomb, rules of engagement that keep you 
from bombing, a media looking over your shoulder as you try to 
prosecute wars, young soldiers today are just overwhelmed by 
distractions from their mission, which is to defeat the enemy. 
And adding another layer to this, making them focus first on 
climate change as a threat is simply a distraction they 
shouldn't be obliged to endure.
    Senator Inhofe. Thank you very much.
    Father Sirico, let's talk a little bit about the impact of 
all these accusations on the impoverished communities, the poor 
communities. What impact would you say that the 
Administration's climate change agenda would have on these 
communities, the impoverished communities?
    Fr. Sirico. Well, I think it is fair to say that when you 
wage what is in effect a war on coal or fossil fuels, what you 
end up doing is increasing the cost of those resources. When 
you increase the cost of those resources, the poor are further 
impoverished.
    Not only that, but it has an effect as well on the 
companies that are employing people and providing these 
resources. For instance, all the different bankruptcies or the 
layoffs on the part of the Powder River Basin, for example, 
laid off 243 workers at the Black Thunder Mine. Peabody Energy 
laid off 235 miners at the North Antelope Rochelle Mine. The 
Alpha Natural Resources filed for bankruptcy in Virginia last 
summer. And the list could go on.
    So I think that the rhetorical attack, the moral attack, 
and the regulatory attack, not to mention the various kinds of 
taxation that go into this, impede the ability of these 
businesses both to employ people and to provide resources at 
affordable prices for people, thus impoverishing their 
communities.
    Senator Inhofe. Thank you.
    Mr. Epstein, a recent report from the U.S. Global Change 
Research Program claims that we will see a rise in extreme heat 
related deaths due to climate change. Yet in your testimony, on 
page 2, you state that higher temperature actually lowers 
mortality rates.
    Mr. Epstein. As I indicated it is very important to 
distinguish between what is demonstrated and what is 
speculated. So what is demonstrated is a steep decline in 
climate related deaths as we use more energy, including fossil 
fuels.
    So what is going on with those predictions is they are 
based on climate prediction models that can't predict climate, 
and they are based on a false understanding of climate safety. 
Nature doesn't give us a safe climate; the primary cause of 
climate safety is the state of climate protection, 
industrialization, and technology. So billions of people around 
the world who don't have that, who are vulnerable to climate, 
that is what they need; they don't need a 1 degree cooler 
temperature.
    Senator Inhofe. Thank you.
    Back to you, General Scales. The President's focus on 
climate change impacting our ability, now, a lot of us up here 
at this table spend time over there. We talk to people in the 
field; we talk to our commanders; we talk to the kids in the 
mess halls, and they have questions that we, quite often, are 
asked, and that is is his focus, the President, the commander-
in-chief, on climate change impacting our ability to execute 
operations with our allies over there?
    Mr. Scales. Yes, I understand, Mr. Chairman, and one of the 
interesting things is I also talk to soldiers, as you know, and 
there is a growing sense in many ways of cynicism among our 
young men and women in uniform, particularly those who are 
deployed. They have so many conflicting stressors that keep 
them, as they would say, from doing their mission.
    And when they are sitting in a mess hall in Kabul and they 
see the President saying, on television, that ISIS may not be 
our No. 1 enemy, climate change may be, and they just came back 
from a patrol with their Afghan allies, these young men and 
women turn to each other and say have our leaders sort of lost 
touch with the reality all around us? And then you stack that 
up with all the other things that we have talked about 
recently, and I am afraid that level of cynicism is what 
interferes with our ability to defend our country.
    Senator Inhofe. I get that same thing.
    Senator Boxer.
    Senator Boxer. I would like to see if Sheldon Whitehouse 
would like to take my turn as first.
    Senator Whitehouse. With the Chairman's permission.
    Senator Inhofe. No objection.
    Senator Whitehouse. I do have to get to a budget hearing at 
10:30.
    I guess I would say that I am just a little bit sad at what 
this committee has become. EPW, Committee on Environment and 
Public Works, it is beginning to look increasingly like the 
Committee on Eccentricity and Public Works.
    We have a United States military that in repeated 
Quadrennial Defense Reviews, which are done by the career 
military, and in the national security strategy have singled 
out climate change as a problem for the future that will create 
the types of stresses that will draw conflict and draw our 
young men and women into conflict. I believe every single 
military official who has spoken about climate change, civilian 
or military, has agreed with that proposition.
    Admiral Locklear ran our Pacific Command for years and said 
that the effects of climate change are more likely than any of 
the other scenarios that they commonly talk about to lead to 
conflict in the Pacific. In the years that I sat on the 
Intelligence Committee and in the assessments that I have seen 
since, it has been a consistent theme of our national security 
personnel in the intelligence community that this is a concern 
that we need to address.
    I would note that with respect to Retired General Scales' 
comments, the timeframe we are dealing is not at all the 
timeframe of the history of warfare. The history of warfare 
goes back tens of thousands of years. We have had at least 
800,000 years within a relatively safe, in our human 
experience, range of carbon in the atmosphere of 170 to 300 
parts per million. Now we are at 400 and climbing. We are in 
unprecedented territory.
    And when you look over that 800,000-year time over the 
association between temperature and CO<INF>2</INF>, it is a 
very close association. And if temperature follows carbon 
dioxide, and there is a reasonable change that it will when it 
has done so for 800,000 years, then we are in for very 
substantial changes. Not just little changes, but big changes. 
Not just changes that would reflect the history of warfare, but 
changes that are really unprecedented.
    And I kind of doubt that actually individual soldiers are 
being asked to address climate change. That is not their job; 
it is our job in Congress to set the terms for our economy so 
that we don't drive our soldiers into situations in which 
conflicts caused by climate change are putting them at risk.
    Similarly, from the Catholic Church we have a pope who has 
written an entire encyclical about our responsibility to our 
climate, focusing on climate change. We have the U.S. 
Conference of Catholic Bishops, which has repeatedly and 
constantly and unanimously continued to say with a very strong 
voice that it is really important that we address climate 
change. Several Catholic bishops actually have come to 
Washington to meet with us and to urge this to happen. There 
was not very good turnout by our Republican colleagues for 
that, but they were here to speak to anyone who would come.
    So we have these very, very strong signals coming from the 
vast majority of these great institutions, our military and our 
Catholic Church, and what we hear in this committee are these 
extremely eccentric voices.
    And we particularly, I think, have reason for concern about 
the presence here of the Acton Institute, which has something 
of an unfortunate record of fronting for industry groups. We 
are now dealing with climate change, but not long ago one of 
the health and safety issues that was predominant was tobacco, 
and people have used those wars, the tobacco wars. During those 
tobacco wars, the Acton Institute took money from the tobacco 
industry.
    And if you look through the records that the attorney 
generals required to be made public in the settlement with the 
tobacco industry, you find a memo from the tobacco industry 
authored by Philip Morris that actually talks about its work 
with the Acton Institute to fight back against tobacco 
regulation. There is a list of organizations that they work 
with; the lead one is the Acton Institute for the Study of 
Religion and Liberty.
    How something for the study of religion and liberty gets 
into tobacco policy is another question entirely, but I am 
quoting from the document. First they call the Acton Institute, 
and I quote Philip Morris, ``an esoteric policy group that 
focuses on illuminating the free market perspective.'' Second, 
they vouch for Acton in that Acton ``has on several occasions 
written articles and op-eds opposing the use of cigarette 
excises as a funding mechanism for health care.''
    And here is the really interesting part. The author says 
``Acton is presently preparing, with our assistance,'' with our 
assistance, with the assistance of the tobacco industry, ``a 
monograph for the Detroit News detailing arguments against sin 
taxes. I will be contacting them,'' the Acton Institute, ``this 
week to elicit their assistance in rebutting the just released 
University of Michigan report that attacks industry projections 
of economic dislocation caused by prohibitive excise taxes.''
    When you are taking industry money and working with 
industry and doing what industry tells you, I have an issue 
with that.
    My time has expired.
    Senator Inhofe. Thank you.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Father Sirico, you have pointed out that the Pope's 
encyclical and environmental stewardship reinforce the concern 
that society progress be balanced with a respect for nature and 
a concern about the most vulnerable populations. I come from a 
rural State where agriculture is the backbone of our economy.
    I would like to know your opinion of how the free market 
can help support a wide variety of industries, particularly 
those like ag, in which those who tend to their land are the 
best environmental stewards we have. How can industries like 
agriculture help alleviate some of the concerns regarding 
vulnerable populations, and what should we do to make certain 
these industries are able to not only survive, but to thrive in 
this country?
    Fr. Sirico. Of course, the question of vulnerability has to 
do with a lack of access to resources, so the best kind of 
policies is to allow these, whether it is agricultural 
businesses or other businesses to be as productive as they can 
be within the rule of law, under the rule of law, in order to 
provide goods and services that are accessible to vulnerable 
populations, at the same time increasing the likelihood and the 
opportunities that they have for employment in order to support 
their families.
    Draconian legislation, general animus toward free market 
activities, the hindrance of competition, the placing of one's 
thumb, as it were, on a scale in terms of that competition by 
the use of various kinds of regulation all impede that 
knowledge flow that I spoke about earlier and speak about more 
extensively in my prepared remarks, that enables people to rise 
in their economic well-being. So I think that what the 
Government needs to do is ensure that law is fair and just and 
objective rather than partisan.
    Senator Rounds. Major General Scales, in your testimony you 
warn about the consequences of having senior defense officials 
lecture our soldiers on the idea that combatting climate change 
is their most important mission. How does this mindset impact 
the men and women serving in the U.S. military and how does 
this detract from our national security in the face of ISIS and 
other security threats to our Nation?
    Mr. Scales. That is a great question, and it goes to the 
points made by Senator Whitehouse. First of all, let me say up 
front that the impression that he gives that this is a 
universal thought held within the defense community is 
ridiculous. I was on the Quadrennial Defense Review; I spent 6 
weeks arguing with my colleagues about this, and in our version 
of the QDR we did not mention climate change.
    Mr. Breen mentioned a report by 17 generals and admirals 
that climbed on board to this mantra about climate change. 
Well, those are friends of mine, so I called them the other 
day, over the last week, and I asked them, what are you doing, 
what is this all about? He said, well, our consensus was we 
will sign up to the dangers of climate change or the 
relationship between climate change and national security ``as 
long as it doesn't cost us anything.'' I mean, why not?
    And as far as Admiral Locklear is concerned, now retired 
commander of the Pacific Command, he made that as a sort of 
off-the-cuff comment about climate change in the Pacific, and 
he never went back to it again. He is now retired.
    This is just part of America, Senator. I mean, it is like 
Y2K or it is like prohibition. We in our society have a 
tendency to jump on bandwagons because that is just what 
America does; it makes us to feel like part of the 
organization.
    But the idea that only young soldiers are concerned about 
losing faith in their leaders over their profession of climate 
change is not true. I will assure you that many senior 
military, both active and retired, are concerned about this 
today.
    Why? Because they fear that, to your point, that it will 
deflect us away from our primary mission, which is defend this 
country and kill the enemy; and second, it will cost us tens, 
if not hundreds, of billions of dollars. Go back to these 
generals and admirals and say, do you still ascribe with that 
thought if it is going to empty our national security budget of 
$200 billion? You will get a different answer.
    Senator Rounds. Thank you.
    Mr. Epstein, in your testimony you mention that Germans 
have added the term energy poverty to their language. Can you 
explain what this means, and is energy poverty something that 
threatens the United States?
    Mr. Epstein. Sure. It varies from country to country, but 
basically it is the percentage of people for whom energy is 
almost a prohibitive percentage of their income. So with any 
kind of measure like this, where you are restricting a crucial 
life enhancing product, the more expensive you make it, the 
more you hurt poorer people in particular.
    So we see even in the wealthier countries that lots of 
people can't afford their electricity bills or can't afford 
many other things that stem from electricity bills. We see 
manufacturers that are on the margin that could work in this 
country if natural gas is cheap.
    But what happens if you ban fracking? Then those companies 
go out of business. And then, of course, internationally--and I 
think this is one of the greatest moral crimes--if you make 
energy more expensive or you prohibit or restrict people from 
getting energy from sources like coal, that is literally death. 
I tell a story in my book, the Moral Case for Fossil Fuels, 
about a young child who could have been kept alive with an 
incubator, but in the Gambia there are no incubators because of 
no reliable electricity.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you very much.
    Senator Boxer.
    Senator Boxer. Thank you.
    Mr. Epstein, are you a scientist?
    Mr. Epstein. No, a philosopher.
    Senator Boxer. You are a philosopher?
    Mr. Epstein. Yes.
    Senator Boxer. OK. Well, this is the Environment and Public 
Works Committee. I think it is interesting we have a 
philosopher here talking about an issue----
    Mr. Epstein. It is to teach you how to think more clearly.
    Senator Boxer. Well, you don't have to teach me how to 
think more clearly.
    [Laughter.]
    Senator Boxer. You don't have to. Try running for the 
Senate on your platform.
    Reverend Nelson, perhaps the most--well, this is the place 
to have a philosopher, not a scientist; it is perfect for this 
Republican----
    Mr. Epstein. You have to integrate the big picture data.
    Senator Boxer. I am not asking you anything. I am telling 
you that all you have to know is you are a philosopher, not a 
scientist, and I don't appreciate getting lectured by a 
philosopher about science.
    Now, I want to talk to Reverend Nelson, who never claimed 
to be a scientist or came up with all these figures and facts 
in his own mind. I just want to say to you you are the most 
eloquent person I have ever heard in all my years here, and I 
am so grateful to you for bringing your eloquence to this 
committee. What you are trying to tell us in a very calm voice 
and not an argumentative, nasty voice is that we have a moral 
obligation to the least among us. Am I right on that point?
    Rev. Nelson. We do, Senator. And I challenge the notion 
that somehow or another the Bible does not speak to this. I 
have with me, actually, a Green Bible, which the pages are 
marked and the passages are marked in green throughout this 
Bible that actually speak to the issues of the care of 
creation.
    Senator Boxer. Well, I would appreciate it if I could have 
some copies of those passages.
    Rev. Nelson. Certainly.
    Senator Boxer. Because I think it is so important to people 
who claim to be religious to turn their back on this threat. It 
is shocking. When we know the co-benefits of going after carbon 
pollution, we are going to save 1,500 to 3,600 lives, 1,700 
heart attacks won't happen, 90,000 asthma attacks in children 
won't happen, and we will restore 300,000 missed work days and 
school days.
    It is a moral issue, and I just wanted to thank you because 
from the angry voices, and we have had them here, it is a 
beautiful thing, and obviously within you you have the security 
and the peace, and you have said it here, and it is very 
important and I so appreciate it.
    And I appreciate the fact that Senator Inhofe allows us to 
pick a couple of witnesses.
    Now, Major General, you disagree with the DOD, and you kind 
of made fun of them and said they are just saying it because 
they are getting on a bandwagon. So I am not asking you a 
question, but what I am hoping you would do, because you spoke 
for others and you demeaned them and said they are just saying 
they are doing it to get along, it doesn't cost anything, give 
me the names of those people so I can contact them, because 
this is a very important testimony here.
    So you can't just get up. I can tell you anything. I could 
tell you I was visited by the greatest leader in all the world 
and said this. You know, you can say anything. I want 
specifics; that is why you are here.
    Now, Mr. Epstein talked about the President mandating solar 
and wind. I would like you to send me those mandates. That 
would be important, because I don't know of them.
    And Father, I appreciate your being here.
    Fr. Sirico. Thank you.
    Senator Boxer. I looked up the Acton Institute because I 
didn't know much, and I know that my colleague said you have 
ties to the tobacco industry. Is it true that you received 
$315,000 from ExxonMobil since 1998?
    Fr. Sirico. Let me give you a broader----
    Senator Boxer. No, I am asking. I don't have a lot of time. 
Is it true?
    Fr. Sirico. OK, I am going to be very brief.
    Senator Boxer. No, no, yes or no.
    Fr. Sirico. The Acton Institute has existed for 26 years. I 
brought the numbers with me. From that time we have received 
under 5 percent of our funding from all corporations----
    Senator Boxer. Father, that is fine.
    Fr. Sirico [continuing]. And 1 percent from Koch, .05 
percent from Exxon----
    Senator Boxer. Father. Father.
    Fr. Sirico [continuing]. And the numbers you have on 
tobacco are correct.
    Senator Boxer. I am losing my time. You received $315,000 
from ExxonMobil; you received funding from the Koch brothers--
--
    Fr. Sirico. Actually, it was $410,000. Your number is 
wrong.
    Senator Boxer. Thank you for correcting the record, and we 
will show it.
    Fr. Sirico. Thank you.
    Senator Boxer. The Koch Foundation, David H. Koch, $313,000 
since 2003.
    Fr. Sirico. No, $895,000----
    Senator Boxer. The Claude Lambe Foundation is another part 
of the Koch Brothers, $60,000.
    Fr. Sirico. Which was that?
    Senator Boxer. The Claude Lambe Foundation, $60,000.
    Fr. Sirico. Yes.
    Senator Boxer. That is connected with the Koch brothers.
    Fr. Sirico. An educational subsidy.
    Senator Boxer. And I would ask unanimous consent to place 
into the record all the other donations from those who are 
fighting us on climate change, if I might.
    Senator Inhofe. Without objection.
    Senator Boxer. Thank you.
    [The referenced information was not received at time of 
print.]
    Senator Boxer. Father, this was kind of interesting. The 
Acton Institute's strong support for Catholicism and free 
market economics has come under strain as Pope Francis has 
actively criticized global inequality and unfettered 
capitalism. In May 2014 the Pope's Twitter account posted a 
tweet, the Pope's, saying, ``Inequality is the root of all 
evil.'' Joe Carter, a senior editor at Acton, tweeted in reply, 
this is to the Pope saying inequality is the root of all evil: 
``Seriously, though, what was up with that tweet by the 
Pontiff? Has he traded the writings of Peter and Paul for 
Economist Piketty?''
    So do you disagree with the Pope when he says that climate 
change is one of the biggest issues, and we have to face it?
    Fr. Sirico. Senator, I am very grateful for your defense of 
the Pope. Perhaps not in all of his magisterial authority and 
the cherry picking of this or that----
    Senator Boxer. I can ask you what I want. Do you disagree 
with the Pope on climate change? It is a simple yes or no.
    Fr. Sirico. When the Pope says things that have to do with 
science, he does not speak from the magisterial authority of 
the Church.
    Senator Boxer. So you don't agree with him. OK, fine.
    Fr. Sirico. When he speaks on moral issues, such as 
abortion and contraception and the like, then he speaks on 
that----
    Senator Boxer. So who is cherry picking? You're saying that 
when the planet is facing all these problems, it is not a moral 
issue. I don't agree with you.
    Fr. Sirico. I never said that. Where did I say that? Could 
you give me that quotation, Senator?
    Senator Boxer. You just said it, sir.
    Fr. Sirico. I did not. I certainly did not.
    Senator Boxer. Sir, you receive money from the Koch 
brothers, from Exxon, you disagree with the Pope----
    Fr. Sirico. I never said I didn't----
    Senator Boxer [continuing]. And you tend to wear the cloth 
you are in front of us?
    Senator Inhofe. OK, OK.
    Senator Boxer. I think you ought to have a talk with 
Reverend Nelson.
    Fr. Sirico. Who is, by the way, not a scientist.
    Senator Inhofe. OK, Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman. I 
think I ought to just not ask any questions and just let ask, 
anything else you want to say on my time, Father?
    Fr. Sirico. What I was trying to do is put into perspective 
the notion of how an institute is funded. And by the way it is 
not just an educational institute like ours; it is political 
campaigns like the Senator's.
    Senator Barrasso. So when Democrats make a pilgrimage to 
Tom Steyer's house in California, who promises $100 million to 
their funds, including members of this committee, that might be 
something that----
    Fr. Sirico. That might be something. I would have to look 
into that. I don't know what Soros gives and things like that. 
The point is that we exist for the purpose of helping people 
understand the moral foundations of the free economy, and it is 
a shame that one has to come to the U.S. Senate to make that 
case and to be opposed on it.
    We go to donors and ask them to support that, and then 
because of political motivations this is distorted into 
insinuating that we are somehow being purchased by industry. We 
get less than 5 percent of our money from industry, and we are 
defending capitalism. I think we should get more money from 
industry because we are defending enterprise. So to distort it 
and make it sound like somehow we are going out like moral 
prostitutes to gain this support I think is disingenuous, at 
the least.
    Senator Barrasso. And the Pope is infallible on matters of 
faith and religion, but not on the matters of science and 
philosophy.
    Fr. Sirico. And does not claim, and does not claim to be 
infallible on science or economics.
    Senator Barrasso. Thank you.
    Mr. Epstein, I would like to read to you something that 
came out from the Energy and Environment Climate Wire. It has 
to do with Wyoming. It is called Powder River Basin: Coal's 
Western Stronghold Faces Precarious Future. In the article, it 
says, ``Overall, Wyoming coal production has decreased 14 
percent since 2011. The economic consequences have been 
extreme.'' It goes through the fact that we continue to lose 
jobs, hundreds have been laid off again last week.
    It says, ``Even before these recent layoffs, the Wyoming 
Department of Workforce Services reported that Campbell County 
had experienced one of the largest jumps in unemployment across 
the State last year.'' Now, these, as you know, are real 
people, real jobs, good paying jobs providing for their 
families.
    The jobs are being crushed because of political decisions 
made by this Administration that decided that coal was 
politically incorrect. People do not know where to go, how to 
get a similar job, the same pay, the same benefits, how to 
provide for their families.
    So rather than making coal cleaner or burning it cleaner, 
or recognizing the benefits that coal provides not only to 
communities like Gillette that depend on it, but also to low-
income communities across the country in terms of the cost of 
electricity, the Administration has basically toed the line 
from their big green activist groups and the elite special 
interests who pay millions and millions of dollars to 
candidates who support that viewpoint, my question is this: Is 
there a moral argument to be made that communities, coal 
communities shouldn't be crushed by their own Government to 
appease special interests?
    Mr. Epstein. Well, I disagree with the way people talk 
about jobs. It is perfectly legitimate for an individual or a 
community to lose jobs if it is out-competed by a superior 
product. What is happening here, though, they are being forced 
out of business despite creating a superior product, a life 
enhancing product, fossil fuel energy, that in its modern 
incarnation even coal today is some of the cleanest energy 
people have ever had access to. In North Dakota you have some 
of the cleanest air in the country and an enormous amount of 
coal-fired power.
    I want to comment on the nature of the industry because it 
seems to be an easy way to score points to talk about 
somebody's affiliation with the industry. Now, I do not happen 
to be funded by anybody, since I am an independent speaker and 
writer, but I am very proud that I sell books to and give 
speeches to fossil fuel companies. These are companies that 
everyday have individuals who are taking action to make all of 
us alive.
    And without being too rude about it, most of the people on 
this committee are quite into their years. Very few of you 
would be alive without cheap, plentiful, reliable energy. 
Everything you are wearing, whatever made it possible for you 
to get here is made possible by energy. And it is not just 
energy in general; you have to produce it cheaply, reliably, 
scaleably, efficiently.
    And you can talk about, oh, I think that can be done via 
solar. The way to figure that out is to compete on the free 
market. But as long as your life is being made possible by the 
people of the fossil fuel industry, I think you should be 
grateful, and I think it is a crime, a moral crime that you are 
damning anyone by association.
    And I wish Senator Whitehouse were here, because what he is 
doing to the free speech of those companies and anyone 
associated with them is unconstitutional, and I think he should 
apologize or resign.
    Senator Barrasso. Thank you very much for the comments. I 
appreciate your being here. I appreciate your writings and 
appreciate you taking the time to be here.
    Mr. Epstein. Thank you. And I am serious. You violate the 
Constitute, you resign. I thought that was a policy in the 
United States.
    Senator Barrasso. General Scales, the Department of 
Defense, under this Administration, has spent millions of 
Department of Defense funds on alternative fuels, and they have 
done it in the name of climate change. Now, this is despite 
millions in funding for alternative fuel research and other 
departments of Government.
    I think there is a thing that comes out each year called 
the Pig Book. It is about citizens against Government waste, 
and it talks about how the Navy, earlier in this 
Administration, spent in excess of $400 per gallon for about 
20,000 gallons of algae-based fuel. Senator McCain frequently 
references this when he speaks.
    How is this improving readiness, safety of troops, sailors, 
airmen, by paying $400 per gallon for biofuels and other 
similar climate related Department of Defense----
    Mr. Scales. Well, thank you, Senator. First of all, let me 
say that our soldiers, sailors, airmen, and marines understand 
intuitively, because they are of that generation, that they 
need to be good stewards of the environment, like all the rest 
of our citizens; and the military has an obligation not to 
pollute the atmosphere or to spill oil in motor pools.
    And I think, because the military is a disciplined 
organization, they do a remarkable job of--if you have ever 
been to a military installation like Fort Sill, you will see 
that they are very careful about protecting the environment.
    But to your point, when it gets to the point where the 
efficiency of our weapons, the ability of aircraft to fly and 
ships to sail are impeded by this obsession of going to 
alternative means of propulsion, or when the cost gets so high 
that things like readiness and modernization and manning levels 
are affected by the diversion of attention and funds, then it 
becomes a problem; and most of the military people I talk to 
about this issue tend to agree with that. They agree, protect 
the environment as a priority; but as a national security not 
so much.
    Senator Barrasso. Well, and to your point, I would just say 
that I spent Thanksgiving with our Wyoming National Guard at 
Bagram Air Force in Northern Afghanistan, you know, north of 
Kabul, and the same things that you described that are 
occurring on the bases in the United States; our soldiers are 
doing the same job of protecting environment around the world.
    Mr. Scales. Right.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Barrasso.
    And for those who came in a little bit late, we extended 
our questioning time by a minute, to 6 minutes, in the hopes 
that everyone will stay within their 6 minutes. All right.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    I have in my hand here the encyclical from Pope Francis, 
Laudato Si', on the care of our common home. This is the Pope's 
encyclical on the environment. He decided, in order to 
reinforce the message, to come to Capitol Hill. On Capitol Hill 
the Pope delivered a sermon on the Hill to the members of the 
House and the Senate, and to the American people.
    As we all know, the Pope taught chemistry. The Pope taught 
chemistry. And here is what he said to us. He said, No. 1, the 
planet is dangerously warming, and the science is clear. No. 2, 
human beings are the most significant new contributor to the 
dangerous warming of the planet, and the science is clear. No. 
3, since human beings are making this significant contribution 
to this problem, we have a moral responsibility to do something 
about it. The United States, as the historically largest 
contributor to greenhouse gases, red, white and blue 
CO<INF>2</INF> up in the atmosphere, that we have a 
responsibility to be the leader to reduce the risk to this 
planet.
    Now, following on what Senator Whitehouse said, by the way, 
with whom I agree 100 percent, the issue then comes to why 
haven't we dealt with this issue? What has been the problem? 
Well, the problem is that there are groups out there in the 
fossil fuel industry whose business model, whose profit making 
model aligns totally with adding more CO<INF>2</INF> up into 
the atmosphere and denying the relationship between 
CO<INF>2</INF> and the dangerous warming of the planet. They 
make money the more they contribute to the problem. The Koch 
brothers are the tip of that huge iceberg, but it is massive.
    Now, what is the evidence of that? Well, the evidence is 
that they have been the leaders in stopping the free market 
from working. They are the single greatest force fighting the 
free market in our country. Subsidies for the oil industry, 100 
years old. Subsidies for the coal industry, 100 years old. 
Subsidies for the nuclear industry, 70 years old.
    But try to get same level of subsidies for the wind and the 
solar industry, and these industries write letters to Members 
of Congress saying, please do not allow for the perversion of 
subsidies to infect the free market, even though their entire 
business premises are tax breaks from the Government.
    So they are acting at a hypocrisy level that is historic in 
size. And the Pope came here to talk about that, to talk about 
this power which these industries have. Even as recently as 
2005 the United States was only producing 70 total megawatts 
new added to the grid from solar. Seventy total.
    And then we began to win, our side began to win; the tax 
breaks going on the books, the States having laws saying there 
had to be a portfolio, an amount of solar and wind that came to 
generate electricity. This year there is going to be 14,000 new 
megawatts of solar in 1 year. Only 70 total in 2005. For wind, 
7,000 megawatts new. Almost nothing in 2005.
    So we have finally begun to break out. We are finally 
beginning to win. And what happens out on the free market when 
the same subsidies are given to the new technologies? Peabody 
Coal Company today declared bankruptcy. That is a free market, 
ladies and gentlemen. Finally, the new sources of energy can in 
fact compete. Let the free market work.
    Let the science also inform the decisions made with regard 
to what the effects are of using fossil fuels as a way of 
generating this electricity.
    Same thing is true with the fuel economy standards of the 
vehicles which we drive. Ford, General Motors, Chrysler, they 
all said, oh, we cannot increase the efficiency of our 
vehicles, even though we know that those tailpipes are sending 
greenhouse gases up into the atmosphere. Finally, finally the 
Congress acted and passed the law that said, no, you must 
increase the fuel economy standards.
    Guess what happened? This year they are going to have the 
largest single sales of vehicles because the American people 
are finally realizing that they can have good cars with fuel 
efficiency and reduce the amount of greenhouse gases going up 
into the atmosphere. The free market, in other words, working.
    And when Waxman-Markey, this bill that the Koch brothers 
and others spent upwards of $300 million to defeat in the 
Congress, even in that bill Henry Waxman and I added $200 
million for the coal industry, for the coal industry, $200 
billion for carbon capture and sequestration. Peabody Coal said 
no. Peabody Coal said no. They said no. OK? So even as you 
tried to help the workers, even as you tried to create a 
bridge, they said no.
    So, ladies and gentlemen, from a national security 
perspective, this is dangerous. General Gordon Sullivan was my 
first witness on the Select Committee on Energy Conservation 
and Global Warming. Here is what he said. He was the Chief of 
Staff for the Army at Blackhawk Down Mogadishu. He said this in 
his testimony: one, he realized in retrospect that it was a 
drought that led to a famine that led to aid that had gone in, 
and now the gangs were now fighting in Somalia, and he had to 
order sending in Americans who got killed because of the impact 
of climate change in Somalia. This does have a national 
security impact.
    I thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Markey.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    I want to thank the panelists for being here today.
    Obviously, I come at this from a very different 
perspective, living in and being a native West Virginian, which 
has a lot of fossil fuels, a lot of coal, a lot of families. 
And when I hear my colleague cheering that a major corporation 
in this country has gone bankrupt, you know what I think about? 
The thousands of families who now don't know if they are going 
to be working, if they are going to have a paycheck. There is 
no off-ramp for them. Those employees have to come home today 
and wonder if they are going to be able to support their 
families.
    This isn't something to cheer about. This is a human 
tragedy that I am living in my State of West Virginia. And they 
may get tired of hearing about the 10,000 jobs that we have 
lost in West Virginia, the county school systems that are now 
cutting 30 and 40 and 50 teachers because of the loss of 
population, the pessimistic, downtrodden pockets of poverty 
that have been created in certain areas of our country, Wyoming 
being one, four States in recession because of the policies.
    You can say free market all you want. This is the policies 
that have been promulgated by this Administration that is maybe 
not the only cause, but one of the major causes of poverty 
creation in our own country. And I can't even talk about it, 
hardly, without expressing the disdain for the glee that I hear 
when poverty is being created, people are losing their jobs, 
families are being devastated. There is a better way to do 
this. There is a better way to do this.
    So my questions are, Mr. Epstein, you talk about the moral 
case for fossil fuels, and you talk about I think a lot of the 
conversation goes around what this does in the international 
community, but I am concentrating, obviously, on what is going 
on in our own country. So how do you see this impacting a low-
income, particularly Appalachia? I am sure you have done study 
on that and looked at that area of the country. We are deeply 
affected by this.
    Mr. Epstein. And again, the reason to have sympathy for the 
situation is that they are not being punished for doing 
something bad by the market. They are being punished for doing 
something good by people who believe that fossil fuels are 
evil. And I tried to give the big picture case why the exact 
opposite is true.
    As I mentioned at the beginning, energy is the industry 
that powers every other industry. So when the price of energy 
goes up, the price of everything else goes up. When the price 
of energy goes down, the price of everything else goes down.
    So every aspect of your life, you can't even isolate one 
because it is the cost of your food, the cost of your clothing, 
the cost of your shelter, the success of your business, your 
ability to take a vacation, the cost of all the different 
modern miracles, the cost of your healthcare. They are all tied 
to energy. Even things like scientific inquiry. If we don't 
have a machine-based civilization powered by cheap, plentiful, 
reliable energy, there are no universities. That is a modern 
development that came out of industrial fossil fueled 
civilization.
    So whenever anyone talks about something that even 
increases the price of energy a little bit, yet alone Germany 
three to four times, yet alone the Obama policies, which would 
do much worse, you have to think about that is killing people, 
that is making them suffer, that is preventing them from being 
able to afford medical care, that is making their food more 
expensive. Every aspect of life is made worse.
    But let's look at the positive. If we can liberate energy 
in this next election, we have an unbelievable opportunity to 
improve every area of life in this country.
    Senator Capito. Thank you. I sat in the audience and 
listened to the Pope speak, and I was very appreciative of many 
of his words, and I thought he gave a very moving address to 
Congress and really to the Nation, and very appreciative of 
that.
    And certainly I was paying close attention to what he was 
saying about clean energy and climate change because that has 
big impacts on where I live. But what I heard him say after he 
talked about his concerns, he adds on his concern for poverty 
and what the cost of high energy and the changes that we are 
making drastically can do and what the cost of poverty is at 
the same time. So I was very appreciative of what he had to 
say, and I saw it through a different lens, I think, because of 
where I live.
    So very briefly, General, I know that the military has made 
a great emphasis with Secretary Panetta to move to green 
energy, and I think, as you know, we all know we can conserve 
and do better, and certainly the military is in that category.
    But where I think we could make a better impact is to have 
longer timelines to develop more research, to use fossil fuels 
for jet engine. You can convert, and there is all kinds of 
research that could be occurring. Do you find that that is 
occurring within the DOD, or is it more of a drive to green 
energy, and that is it?
    Mr. Scales. I do think--I know in Fort Sill and places in 
the Southwest they are using both wind energy and solar on post 
to reduce the cost of energy. I know that the services are 
experimenting with alternative fuels. But the bottom line is 
simply this: so far, at least, a fighter plane or a ship or a 
tank simply can't be made efficient in close combat without the 
density of energy that is in liquid fossil fuels. You simply 
can't do it.
    Now, I will also say that many of my colleagues are saying 
that in the long-term perhaps this will change. My concern is 
that if the commander-in-chief says to his soldiers, who obey 
orders, it is time to start thinking of other ways to propel a 
tank or an aircraft, it may cause something to happen before 
its time, and it may very well impede our ability to fight 
future wars.
    Senator Capito. Thank you very much.
    Senator Inhofe. Thank you.
    Senator Gillibrand has very generously agreed to swap turns 
with Senator Sullivan. Then we will go back and take care of 
the rest.
    Thank you so much.
    Senator Sullivan. Thank you, Mr. Chairman, and thank my 
colleague from New York. I am going to go preside here in a 
minute, so thanks for the flop. I want to thank the Chairman 
and the Ranking Member for holding this hearing, and the 
witnesses.
    I think this is a really great topic, and it is also great 
to have a little bit of a heated debate here. So I appreciate 
you doing this. I know sometimes it is not easy; you have 
members of the committee on both sides trying to go after the 
incentives for you to be up here testifying, and I am just 
going to say I assume you are all here on good faith, on what 
you believe, so I really appreciate that.
    I also want to just echo what my colleague from West 
Virginia mentioned. I have the utmost respect for my friend 
from Massachusetts, but holy cow, if he is celebrating the 
bankruptcy and job loss of hundreds of Americans, we have 
something wrong going on here, in my view. We shouldn't ever be 
doing that.
    I think she was very passionate about what she said and 
very persuasive, so I certainly hope nobody would--particularly 
on this committee--be celebrating the job losses and hard times 
that a lot of Americans--because of the policies of this 
Administration, certainly my State has seen that--are 
experiencing right now.
    I just want to touch very quickly, and Father, maybe you 
can touch on this. We talk a lot about moral imperative. I have 
been someone who thinks that one of the biggest issues that we 
don't talk about here in this Congress, Democrats or 
Republicans, and it relates to these policies we are talking 
to, is that we can't grow our economy.
    There is a debate on fossil fuels, Obamacare. We debate 
everything. There is one issue that is not debatable: the last 
8 years, by any historical measure, have had some of the 
weakest economic growth in U.S. history. Never broken 3 percent 
GDP growth in the entire Obama administration era. Last quarter 
I think we grew .1 percent, and nobody even says anything.
    Is there a moral imperative to grow the economy and allow 
for free enterprise and free markets? That is what has made 
this country strong--strong traditional levels of American 
growth, 3, 4 percent GDP growth, Democrats, Republicans. We 
can't even come close to it.
    So you know what they do in Washington now? They dumb it 
down. They don't say, hey, we need to get back to 3 percent GDP 
growth, or 4, which will create opportunities for families, 
particularly those on the lower ladders of the economic ladder. 
We just dumb it down and say this is the new normal. The new 
normal. We are going to now tell Americans that we can only 
grow 1 percent. Don't worry, you should be satisfied with that.
    The secretary of the Treasury never comes out and says, 
don't worry, America, we grew it .1 percent GDP growth last 
quarter; I have a plan. No. They dumb it down and say we should 
just accept that, it is the new normal.
    Father, what do you think of that?
    I would also like Mr. Epstein to maybe weigh in on that one 
as well.
    Fr. Sirico. Well, I have no doubt that one of the green 
passages that are underlined in Dr. Nelson's Bible is the 
command of God to the newly created human family to multiply 
and have dominion over the world.
    But the normative way in which we rise out of poverty is 
through human action; it is through human beings using their 
intellect, using their freedom, engaging their talents and 
their risk to produce from the fruits of the earth because we 
do not become better off by having natural resources in nature. 
We become better off by having those resources drawn from 
nature and placed at human service.
    And the fossil fuel industry, it seems to me, has been one 
of those great resources of human betterment on this planet and 
the wealth of the United States historically, and indeed the 
world has been predicated on that.
    I find it a dangerously mistaken notion to think, and this 
may come as a shock to the committee, that the Government is 
the source of wealth in this country, or the source of jobs. 
And I saw that mistaken notion of thinking when the Senator 
from Massachusetts assumed that tax exemptions or credits were 
tax subsidies.
    If you want to resolve that whole problem and have a nice 
bipartisan approach, remove all of the subsidies and all of the 
credits from all of the industries and let them compete on the 
free market that Senator Markey, I think inadvertently, was 
endorsing.
    Senator Sullivan. Mr. Epstein, do you have a view on the 
issue of how we can't grow the economy, what that does for 
hope, what that does for poverty, what that does for the 
outlook of the American family?
    Mr. Epstein. I think one of the tensions on the committee 
on this issue is how do you weigh economic growth, and then how 
do you weigh these kinds of environmental considerations. And 
this is exactly the kind of consideration that is the subject 
of philosophy, which Senator Boxer has said is unnecessary, 
although she thinks religion is necessary to evaluate science, 
which I don't get.
    But what philosophy teaches us is how to look at the big 
picture, and with these issues the crucial concept, which is in 
the Constitution and the Declaration of Independence, is 
individual rights. We want the policies that protect the rights 
of individual to pursue their own flourishing without 
interference by others. So if you do it right, what you do is 
you set scientific, not speculative, but scientific thresholds 
for things like CO<INF>2</INF>, where there is no relevant 
threshold right now for different kinds of air pollution, for 
other things.
    So what you do is you liberate individuals to be as 
productive as possible while protecting each other's rights, 
and that is absolutely possible. And if that were done we would 
have a thriving economy because fracking really slipped by 
Obama. He didn't really know about it. If he had known about 
it, he would have probably tried to get it banned.
    So our prosperity right now depends on the ignorance of our 
politicians, which is pretty scary. But imagine if we had been 
free to frack, if we are free to produce energy, we are free in 
every other sector of the economy while having rational rights 
protecting environmental laws, we will grow 5 or 10 percent.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman. And I want to thank again my 
colleague from New York.
    Senator Inhofe. Yes. Thank you, Senator Sullivan. Go 
preside.
    Senator Gillibrand, again, thank you very much for 
accommodating his schedule.
    Senator Gillibrand. Thank you. This is quite a hearing.
    I have a copy of Pope Francis' beautiful encyclical on 
climate change. Pope Francis reminds us the impacts of climate 
change are often most acutely felt by those who are most 
vulnerable and who do not have the resources to adapt.
    So, Reverend Nelson, can you talk a little bit about the 
effects that environmental degradation and resource scarcity 
has on communities like the one you serve in Memphis? Why do so 
many religious leaders believe that we have a moral imperative 
to address climate change?
    And just in response to the last area of debate, on page 9 
it says, ``My predecessor, Benedict, likewise proposed 
eliminating the structural causes of the dysfunctions of the 
world economy and correcting models of growth which have proved 
incapable of ensuring respect for the environment.'' So just as 
a commentary on the last discussion.
    Reverend Nelson, I would like your thoughts.
    Rev. Nelson. Thank you. One of the great challenges in low-
income communities is that many of them have had to bear the 
brunt of toxic waste, have had to deal with a number of issues 
regarding being located next to power plants that set off great 
emissions in the life of a community.
    We have seen children who have developed all types of 
illnesses. And one of the greatest pieces in the community that 
I was in was the issue of asthma, which causes children to miss 
many days of school. That is never recorded in any kind of 
educational record; it is basically at the end of their tenure 
in school, they miss too many days or they haven't been able to 
catch up with their work. So low-income children end up being 
further and further behind in the educational process due to a 
lot of these kinds of toxic problems that they are having with 
the environment.
    And we are able to attribute--I think there is 
documentation across the board that has attributed that in most 
of these communities where there are heavy carbon emissions 
this is symptomatic of it, children not being able to make it 
to school and to be able to respond.
    Senator Gillibrand. Yes, Reverend. I have the same problem 
in many places in my State. In the Bronx we have one of the 
highest asthma rates, and it is because of the density of 
transportation networks that don't rely on mass transit, as 
well as a lot of historic environmental degradation along with 
a lot of poor air quality.
    We also see it not just in our cities and our country, but 
we also see it around the world. I would like to submit for the 
record a New York Times article specifically about Africa. And 
this is about what is happening in Zambia because most of their 
electricity is generated from a dam, from the Kariba, and it 
says, ``But today, as a severe drought magnified by climate 
change has cut water levels to record low, the Kariba is 
generating so little juice that blackouts have crippled the 
nation's already hurting businesses. After a decade of being 
heralded as the vanguard of African growth, Zambia, in a quick, 
mortifying let down, is now struggling to pay its own civil 
servants and has reached out to the International Monetary Fund 
for help.'' So this is a world problem.
    And I would like to submit that for the record, Mr. 
Chairman.
    Senator Inhofe. Without objection.
    Senator Gillibrand. Thank you.
    [The referenced article was not received at time of print.]
    Senator Gillibrand. Mr. Breen, I would like to talk a 
little bit about the Quadrennial Defense Review. It classified 
global climate change as a threat multiplier. Could you please 
discuss the impacts of resource competition, particularly those 
in the developing world, on political instability? Also talk 
about the impact of our own national security.
    And I know, because I serve on the Armed Services 
Committee, we have hardened a lot of our bases so that we are 
energy independent, so we don't have to rely on Middle Eastern 
oil. We don't even have to rely on fossil fuels. So we have 
Fort Drum, for example, that is entirely able to be off the 
grid at any moment and be entirely self-sustaining.
    So I see this military as understanding where the threats 
actually lie and responding to them through energy 
independence, through renewables. And if you talk to anybody on 
the battlefield, if they don't have equipment that can recharge 
remotely, and not have to have large trucks of gasoline and oil 
delivering to bases, it is such a risk for them that they are 
dependent on these supply chains. So if they can have portable 
supplies, portable batteries, portable solar energy, it is so 
much more effective for our military and our fighting forces 
worldwide.
    So could you please comment on those thoughts?
    Mr. Breen. Sure. Thank you, Senator.
    The military is without a doubt doing a lot of things to 
make itself more agile and more lethal on the battlefield with 
respect to energy. There is nothing abstract about this; I 
lived this firsthand as a 23-year-old lieutenant in Iraq 
fighting every night to get the fuel convoy into my perimeter I 
needed to run an inefficient gas generator. Today my colleagues 
have solar panels and tactical solar systems that run the same. 
They don't have to take the same kind of risks; they have taken 
action to reduce their logistical tail.
    The fuel purchase, the fuel tests that the Senator alluded 
to earlier, that is intended to make sure that the Navy's 
fighter aircraft have combat capability with a broader range of 
fuel, so if something happens to the traditional petroleum fuel 
supply, they can operate on other fuels. That is about combat 
impact; that is about strategic flexibility.
    But to your point about the Quadrennial Defense Review, I 
really do want to make this point. It is not just official 
policy of the Department of Defense that national security is a 
risk; it is not just the consensus of these 16 retired admirals 
and generals and many others who have no skin in the game, 
commandants in the Marine Corps, chiefs of staff of the Army 
who sign their names to this. I represent an organization with 
over 1,500 people who served on the front lines, soldiers and 
civilians.
    What we have seen with our own eyes tells us these dynamics 
are real. When I was serving in Afghanistan the going rate to 
fire 107-millimeter Chinese rocket at me and my paratroopers 
was $10. The people taking that money were farmers whose crops 
wouldn't grow. Now, the guy giving them the money, that was the 
guy who we were in the country to capture or kill. He is not 
doing it because he is poor; he is a sworn enemy of the United 
States. But why are we making his job easier by failing to 
address the underlying conditions that allow him to recruit? 
And making my job harder by giving me more people to fight?
    If you have walked those hills and lived those dynamics, 
there is nothing abstract or theoretical about the impact of 
flooding and drought and famine. Of course, people who can't 
feed their kids are going to turn to violence. And when they 
get organized in groups and start killing each other, that is 
called war.
    Senator Gillibrand. Thank you, Mr. Chairman.
    I just want to say one thing. I am disturbed by a lot of 
the testimony I have heard today. If we are talking about 
religious values and Judeo-Christian values, we are talking 
about the Golden Rule, which is love one another as you would 
love to be loved; treat one another as you would like to be 
treated; love one another with all our hearts and souls. 
Individualism, as you talk about, has nothing to do with that 
basic Judeo-Christian value. That is why we care about what 
policies we pass as a Nation and how they affect one another. 
We cannot live isolated lives and not care about effects.
    So when someone is talking about moving this country toward 
a renewable future, where we aren't polluting our neighbors' 
territories, our neighbors' States, anything burned in the 
Midwest, it dumps all the toxins on New York State. There are 
communities that have cancer in the numbers for children and 
women because of toxins, because of what we do somewhere else 
in the country.
    So please, as we debate these issues, and we are going to 
talk about values, let's talk about our founding principles of 
this country. We have always believed that our democracy is 
strongest when we care about the least among us.
    Senator Inhofe. Thank you, Senator Gillibrand.
    Senator Booker.
    Senator Booker. Mr. Chairman, I am very grateful for this 
hearing. I was a Mayor for 8 years of an inner city, and I had 
no time for philosophy besides reading, and I had the 
practicality of having to balance budgets and deliver services. 
I often talked to my Republican friends, who I worked in 
partnership with during my time, and said there was no 
government leader that cut government more than I did. I cut 25 
percent of my work force while I was there; no government in 
New Jersey. The State, 21 counties, 565 municipalities. I 
partnered with big banks like Goldman Sachs, and unions to 
bring about Newark, New Jersey's biggest economic development 
boom in 60 years, bringing in billions and billions of dollars 
in development, new hotels, jobs, and the like.
    I am a pragmatist, a fierce pragmatist. And what is 
outrageous to me is people who want to preach the free market. 
But what they are really defending is a perversion of the free 
market like at colossal costs. We know there are things called 
negative externalities when it comes to business, and the 
challenge we have right now is we are allowing businesses and 
corporations to pass on costs to society. This Government 
spends billions and billions of dollars, this committee, 
brownfields clean up, Superfund clean up. Billions of dollars. 
I applied for these grants from Government to clean up the 
costs of businesses who did not assume their costs.
    I have one of the most polluted rivers in America in the 
Passaic River that we just approved billions of dollars to 
clean up the negative externalities of corporations that have, 
in a sense, going to philosophy, are poisoning the commons. The 
get all you can, pursue what you want philosophy is clearly 
destroying the commons in our country.
    And this, Pastor, which you so eloquently write about in 
your testimony, is the agony that I see every single day, that 
in a global, knowledge-based economy, the most valuable natural 
resource any country has is not gas or oil or coal, it is the 
genius of our children. We are squandering that natural 
resource in ways that are greater than the oil spill in the 
Gulf Coast or any spill off the coast of California.
    The No. 1 reason my kids miss school, the No. 1 reason my 
children in Newark, Camden, Passaic, Patterson miss school is 
because of the environmental toxins that cause them illnesses 
and ailments which our corporations outsourcing onto them, 
ranging from asthma to lead paint poisoning. I now have a city 
where nature has been so corrupted where I live, and I tell you 
right now, 100 Senators, I don't know anyone that goes back to 
their home in a census track that is in poverty.
    So my community can't dig in their soil because it is 
poisoned with lead. We have to use planters above because of 
negative externalities from corporations. We can't fish in our 
water. All the clams, all the fish taken away. Can't breathe 
the air because of toxins in the air are causing epidemic 
asthma rates.
    What happens to a people that have been divorced from 
nature because of these negative externalities? The costs are 
clear. We can measure this data in terms of what it means to 
have lost productivity of children. Millions and millions of 
lost school days and work days because of these environmental 
toxins. So I believe in the free market, but what we have right 
now is a perversion of that market. And what you are doing, 
what we can't measure is the lost genius of our children.
    Now, I know Memphis. My brother lives in Memphis. Ain't 
that much different than Newark. And what is tragic to me is 
that the children of your city and my city, there is just as 
much genius there as in our wealthiest communities. That lost 
potential, that lost productivity, that lost artistry because 
of this philosophy that is a perversion of the free market.
    It is insulting to me that we are letting these costs 
consistently be passed on. We are not a Nation of individual 
rugged individualism. Rugged individualism didn't get us to the 
Moon, it didn't map the human genome. It is our genius 
cooperation and partnership one to another. I know in our 
Declaration of Independence we recognize this interdependency, 
this need for each other when we talk about pledging to each 
other our lives, our fortunes, and our sacred honor. Sacred 
honor.
    So, Pastor, in the 10 seconds I have left, God bless you 
for advocating true free market capitalism because the value of 
the children in your city, the environmental impact, what is it 
doing to the most precious resource God has ever created? Not 
coal in the ground, not gas released by fracking. The most 
valuable natural resource, what has it done?
    Rev. Nelson. It is damaging whole communities of people. 
And I believe that as we read our holy books, the reality is 
that community is the beginning of formation and how we are 
formed not only in the home, but how we are formed in the 
extended community itself. And when we find individuals who are 
dying of cancer too early, when we are looking at matriarchs 
and patriarchs of families who are struggling with what it 
means to work and come home and develop all kinds of sicknesses 
and illnesses, it deals with not only the psyche of parents of 
children and how they raise them, but it also deals with the 
fabric of whole families.
    We are struggling with what that means. It is not just the 
issue of the physical illnesses but also what it does to a 
person mentally, who cannot work, who cannot provide for their 
families, who are finding themselves struggling with energy and 
having sustaining energy in their own lives to be able to go to 
work every day and come home.
    This has a devastating effect upon whole populations of 
people, but more importantly it has a devastating effect upon 
families. And when we talk about building family life and the 
life of the United States of America, one of the realities is 
when parents come home sick, when they come home struggling, 
when they can't work, and then when their children can't go to 
school, and they are poor and don't have the levels of 
assistance to either take care of those family members or those 
children, it puts a whole cycle of people in poverty and they 
remain there.
    Senator Booker. Thank you, sir.
    Senator Inhofe. I thank the panel.
    Against my better judgment, my Ranking Member has asked for 
3 minutes to close, and I will grant that as the Chairman of 
this committee, but it will be only 3 minutes, and I will be 
following with 3 minutes. Then we will be adjourning.
    Senator Boxer.
    Senator Boxer. Thanks.
    I will never forget this hearing. First, we have a 
philosopher who wants Senator Whitehouse to resign, Senator 
Whitehouse who is working every day to stop carbon pollution 
and save lives. We have a philosopher telling us that Senator 
Whitehouse should resign.
    Then we have Father Sirico, who is proud to ask for more 
money from polluting corporations right here at the Environment 
Committee. He asked for more money from polluting corporations. 
Then we have a retired general who turns on the DOD. We have a 
Republican Senator who compares taking political money from 
polluters to taking political money from environmental 
advocates.
    And we have another Republican Senator, this is 
unbelievable, blaming President Obama for slow economic growth, 
when the average yearly job growth under President Obama is 1.3 
million, OK, average yearly growth of jobs, compared to 160,000 
year under George W. Bush, who actually didn't create one new 
private sector job.
    Now, look, to many people's delight and some people's 
sadness, I won't be here that much longer, but I have to tell 
you this hearing--I thank my Chairman for it because we have a 
job to do. This is the Environment Committee. We need to get 
back to what our mission is. I was here when Republicans and 
Democrats worked together. I mean, Senator Booker is trying so 
hard to do it today, and he is making progress and all of us 
are.
    But that was the norm. The days of John Warner, the days of 
John Chaffee, the days when we could look across the aisle and 
realize maybe we didn't have every Democrat, but we sure picked 
up a few Republicans, it is gone. It is gone. The very people 
who testified and said climate change is real, we have to do 
something about it, when I took the gavel, which was so lovely, 
in 2008, those people have all changed; they are gone. They 
either quit or they are not around. Why? The insidious role of 
dirty money in politics, sometimes it is secret, sometimes it 
is not so secret.
    Father, I respect you. You are right there. Give me more 
corporate money. Oh, yes, I take money from the Koch brothers, 
just a little. Oh, I take money from Exxon, but it is just a 
little. How can you not have a compass inside that tells you it 
is not right, that there is a conflict there, when you testify 
on the environment in front of the Environment Committee and 
don't realize that you have a conflict?
    So let's get back, Mr. Chairman, to the days when we had 
cooperation on this.
    Senator Inhofe. Thank you, Senator Boxer.
    Now I want to take my 3 minutes.
    First of all, if you are talking about why is it you never 
hear from this side about Tom Steyer, who said he is going to 
put $100 million to try to resurrect the issue of global 
warming? Why is it we keep hearing the same thing from the 
individuals over here that the science is settled, the science 
is settled, when in fact it is not settled?
    Why is it we hear from people over here that when you have 
an increase in the emissions it produces warmer weather, when 
in fact, starting in 1895, that was the first time that they 
came along and declared and used the word another ice age is 
coming? Then that changed in 1918, then in 1945. It happens 
that we went into a cooling period in 1995. Now, 1995 was the 
year of the greatest increase in the release, this was right 
after the war, of greenhouse gases, and it precipitated not a 
warm period, but a cold period.
    Last, I would say I was kind of going for memory, so I 
haven't looked it up, but I do know, and it seems to be truer 
today when I read I think it is Romans 1:25, when they said we 
will come to the point when we will be worshiping not the 
creator, but the creation. I think we have come to that point.
    Now, I have a minute and a half left over, and I think 
perhaps, Father, you were attacked a little bit more than the 
rest. You take about 45 seconds.
    Then the same with you, Mr. Epstein. And if there is 
anything left over, General, you got it.
    Fr. Sirico. Thank you, Senator. I am from Brooklyn, so I 
can take an attack. I can also give one, too. And let me just 
point out how, again, I want to be polite, the word is 
disingenuous to have people quote to me parts of a papal 
encyclical or a papal elocution like the sermon that was 
delivered here and only choose the parts that are not 
magisterial parts, certainly things that he said as a man who 
is reflecting on these things, but not those very parts that 
are key to his pontificate, namely the things having to do not 
just with life vis-a-vis the environment, but life in the womb, 
which you have opposed. And the disingenuity of all of this is 
of great concern to me.
    The question that Senator Booker raises about externalities 
is an exactly precise and good question and is better resolved 
by a clearer definition of the right of private property; not 
by obscuring the right of private property or controlling it or 
taxing it but precisely to define it more clearly so that 
people are responsible for those externalities and the 
vulnerable don't suffer from it.
    I respect the time.
    Senator Inhofe. Thank you.
    The time has expired. We are adjourned, and I thank very 
much our witnesses for coming and exposing themselves to this 
type of treatment.
    [Whereupon, at 11:30 a.m. the committee was adjourned.]

                                 <all>
</pre></body></html>
